APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
_______
UNITED STATES ex rel. DAVID FELTEN, M.D., Ph.D,
Plaintiff-Appellant,
v.
WILLIAM BEAUMONT HOSPITAL,
Defendant-Appellee.
_______
No. 20-1002
_______
Appeal from the United States District Court
for the Eastern District of Michigan at Detroit.
No. 2:10-cv-13440—Stephen J. Murphy, III, District
Judge.
_______
Argued: October 20, 2020
Decided and Filed: March 31, 2021
_______
Before McKEAGUE, GRIFFIN, and BUSH, Circuit
Judges.
_______

2a
COUNSEL
ARGUED: Julie Bracker, BRACKER & MARCUS
LLC, Marietta, Georgia, for Appellant. Michael R.
Turco, BROOKS WILKINS SHARKEY & TURCO,
Birmingham, Michigan, for Appellee.
ON BRIEF: Julie Bracker, Jason Marcus, BRACKER
& MARCUS LLC, Marietta, Georgia, for Appellant.
Michael R. Turco, Jason D. Killips, Steven M. Ribiat,
BROOKS WILKINS SHARKEY & TURCO,
Birmingham, Michigan, for Appellee.
_______
BUSH, J., delivered the opinion of the court in which
McKEAGUE, J., joined. GRIFFIN, J. (pp. 11–18),
delivered a separate dissenting opinion.
_______
OPINION
_______
JOHN K. BUSH, Circuit Judge.
David Felten appeals the district court’s partial
dismissal of his first amended complaint alleging that
William Beaumont Hospital (“Beaumont”) violated
the antiretaliation provision of the False Claims Act
(“FCA”), 31 U.S.C. § 3730(h). Felten claims that
Beaumont blacklisted him after he filed a qui tam
complaint, in which he alleged that the hospital
violated certain federal and state laws. Notably, the
alleged
blacklisting
occurred
after
Felten’s
termination from Beaumont, and Felten’s antiretaliation claim challenges only Beaumont’s posttermination actions. The district court dismissed the
claim because it held that the FCA’s anti-retaliation
provision covers only retaliatory actions taken during

3a
the course of a plaintiff’s employment. The district
court certified for interlocutory appeal the question
whether the FCA’s anti-retaliation provision protects
a relator from a defendant’s retaliation after the
relator’s termination. That question is an issue of first
impression in our circuit. Because we hold that the
FCA’s anti-retaliation provision protects former
employees alleging post-termination retaliation, we
vacate the district court’s dismissal order and remand
for further proceedings consistent with this opinion.
I.
On August 30, 2010, Felten filed a qui tam
complaint alleging that his then-employer, Beaumont,
was violating the FCA and the Michigan Medicaid
False Claims Act. He alleged that Beaumont was
paying kickbacks to various physicians and physicians’ groups in exchange for referrals of Medicare,
Medicaid, and TRICARE patients. Felten also alleged
that Beaumont had retaliated against him in violation
of 31 U.S.C. § 3730(h) and Mich. Comp. Laws
§ 400.610c by threatening and “marginaliz[ing]” him
for insisting on compliance with the law. After the
United States and Michigan intervened and settled
the case against Beaumont, the district court dismissed the remaining claims, except those for
retaliation and attorneys’ fees and costs.
Felten subsequently amended his complaint to add
allegations of retaliation that took place after he filed
his initial complaint. He alleged that he was
terminated after Beaumont falsely represented to him
that an internal report suggested that he be replaced
and that his position was subject to mandatory
retirement. Felten further alleged that he had been
unable to obtain a comparable position in academic

4a
medicine. This, he alleged, was because Beaumont
“intentionally maligned [him] . . . in retaliation for his
reports of its unlawful conduct,” undermining his employment applications to almost forty institutions.
The district court granted Beaumont’s motion to
partially dismiss Felten’s first amended complaint. In
relevant part, the district court dismissed the
allegations of retaliatory conduct occurring after
Felten’s termination, holding that the FCA’s antiretaliation provision does not extend to retaliation
against former employees. The district court
interpreted the qualifier “in the terms and conditions
of employment” in § 3730(h)(1) to mean that the
provision’s coverage encompasses only conduct
occurring during the course of a plaintiff’s
employment.
Upon Felten’s request to amend the dismissal order,
the district court certified for interlocutory appeal the
question whether § 3730(h) applies to allegations of
post-employment retaliatory conduct. We granted
Felten’s petition for permission to appeal.
We review de novo a district court’s order regarding
a motion to dismiss. Binno v. Am. Bar Ass’n, 826 F.3d
338, 346 (6th Cir. 2016). We accept a plaintiff’s factual
allegations as true without presuming the truth of
conclusory or legal assertions; then we determine
whether the allegations state a facially plausible
claim for relief. Id. at 345–46.
II.
At issue here is the temporal meaning of the word
“employee” and the prohibited employer conduct in
the FCA’s anti-retaliation provision, 31 U.S.C.
§ 3730(h)(1). That subsection states:

5a
Any employee, contractor, or agent shall be
entitled to all relief necessary to make that
employee, contractor, or agent whole, if that
employee, contractor, or agent is discharged,
demoted, suspended, threatened, harassed, or
in any other manner discriminated against in
the terms and conditions of employment
because of lawful acts done by the employee,
contractor, agent or associated others in
furtherance of an action under this section or
other efforts to stop 1 or more violations of this
subchapter.
§ 3730(h)(1). When this provision refers to an
“employee” and proscribes certain employer conduct,
does it refer only to a current employment
relationship, or does it also encompass one that has
ended?
To answer that question, we start with the statutory
text. See Binno, 826 F.3d at 346. We first “determine
whether the language at issue has a plain and
unambiguous meaning with regard to the particular
dispute in the case,” relying on “the language itself,
the specific context in which that language is used,
and the broader context of the statute as a whole.”
Robinson v. Shell Oil Co., 519 U.S. 337, 340–41, 117
S.Ct. 843, 136 L.Ed.2d 808 (1997). That analysis ends
our inquiry “if the statutory language is unambiguous
and ‘the statutory scheme is coherent and
consistent.’ ” Id. at 340, 117 S.Ct. 843 (quotation
omitted). But if the text is unclear, we may look at the
“[t]he broader context” of the statute and statutory
purpose together to resolve the ambiguity. Id. at 345–
46, 117 S.Ct. 843.

6a
The FCA does not explicitly say whether it pertains
only to current employment. However, Beaumont
argues that the plain text of the FCA, when read
according to relevant canons of statutory
interpretation,
unambiguously
excludes
posttermination retaliation. It urges us to adopt the
approach of the Tenth Circuit—the only other court of
appeals to decide the issue—in Potts v. Center for
Excellence in Higher Education, Inc., 908 F.3d 610,
614 (10th Cir. 2018). We respectfully disagree with
Beaumont and our sister circuit’s conclusion that the
answer to the issue presented is clear. As explained
below, the statutory text is in fact ambiguous.
We usually interpret a statute according to its plain
meaning, without inquiry into its purpose. We also
acknowledge the Supreme Court’s recent reminders to
stay away from extra-textual tools when ascertaining
legislative intent. See Azar v. Allina Health Servs., —
U.S. —, 139 S. Ct. 1804, 1814, 204 L.Ed.2d 139 (2019);
Food Mktg. Inst. v. Argus Leader Media, — U.S. —,
139 S. Ct. 2356, 2364, 204 L.Ed.2d 742 (2019). But
Robinson v. Shell Oil provides guidelines for
determining when a statute’s meaning is not plain in
the context of protections for employees and what to
do in the face of ambiguity, and we are bound to follow
Robinson. See McKnight v. General Motors Corp., 550
F.3d 519, 524 (6th Cir. 2008) (explaining that
Robinson “laid out a roadmap for statutory
interpretation”).
In Robinson, the Supreme Court held that the term
“employees” in § 704(a) of Title VII of the Civil Rights
Act of 1964 is ambiguous and could be read to refer to
both current and former employees. 519 U.S. at 345,
117 S.Ct. 843. That conclusion flowed from three

7a
considerations. First, Congress added “no temporal
qualifier” to Title VII to clarify whether the statute
includes only current employees or both current and
former employees. Id. at 341, 117 S.Ct. 843. Second,
Title VII’s definition of “employee” itself has no
temporal qualifier and “is consistent with either
current or past employment.” Id. at 342, 117 S.Ct. 843.
Third, Title VII includes other provisions that use the
term “employees” to encompass “something more
inclusive or different than ‘current employees,’ ” such
as a provision authorizing “reinstatement or hiring of
employees” as a remedy. Id. The Court acknowledged
that some sections of Title VII use “employee” to
unambiguously mean a “current employee,” but it
reasoned that that fact shows only that the term
“ ‘employees’ may have a plain meaning in the context
of a particular section—not that the term has the
same meaning in all other sections and in all other
contexts.” Id. at 343, 117 S.Ct. 843.
Robinson’s reasoning applies with equal force to the
FCA’s
anti-retaliation
provision,
31
U.S.C.
§ 3730(h)(1). We address each consideration in turn.
First, there is no temporal qualifier accompanying
the term “employee” in § 3730(h)(1), and that
provision’s explicit reference to “[a]ny employee,” id.
(emphasis added), could mean that it applies to any
person who has ever been employed. Beaumont points
to the noscitur a sociis canon to argue that the list of
actionable conduct in § 3730(h)(1) constitutes the
temporal limitation that distinguishes § 704(a) of
Title VII from the FCA’s anti-retaliation provision.
True, the first three operative words on that list—
“discharged, demoted, suspended”—refer to harm
against only current employees. A person cannot be

8a
discharged, demoted, or suspended unless he or she
first has a job to lose. However, current employment
is not necessary for a person to be “threatened,”
“harassed,” or “discriminated” against—the last three
types of misconduct specified on the list. Thus, half of
the terms on the list can refer to former employees,
thereby reducing the value of the noscitur a sociis
canon in this case. Congress may have included
“threatened,” “harassed,” and “discriminated” in the
statute to expand the temporal scope of the antiretaliation provision because the three terms are, by
their plain meaning, not restricted to a current
employment relationship.
Beaumont also argues that the qualifier “in the
terms and conditions of employment” at the end of the
list of sanctionable conduct eliminates any reading
that § 3730(h)(1) could provide relief to a former
employee. In support, Beaumont notes that the Tenth
Circuit held that the qualifier modified the word
“discriminated” to make “discriminated in the terms
and conditions of employment” a “catch-all phrase”
that, under the ejusdem generis canon, restricted the
meaning
of
all
listed
misconduct
in
§ 3730(h)(1) to only activities that occurred while the
plaintiff was still employed. See Potts, 908 F.3d at 615.
With due respect to our sister circuit, we are not
convinced. Even if the phrase “terms and conditions of
employment” is a catch-all that applies to each listed
type of misconduct in § 3730(h)(1), it does not
necessarily restrict misconduct to occurrences that
take place only while the plaintiff is still employed.
There are many terms and conditions of employment
that can persist after an employee’s termination. See,
e.g., Lantech.com v. Yarbrough, 247 F. App’x 769,

9a
771–72 (6th Cir. 2007) (referencing a noncompete
agreement and confidentiality agreement); Hall v.
Edgewood Partners Ins. Ctr., Inc., 878 F.3d 524, 528–
29 (6th Cir. 2017) (holding non-solicitation provisions
enforceable against employees terminated without
cause); E.E.O.C. v. Cosmair, Inc., L’Oreal Hair Care
Div., 821 F.2d 1085, 1088–89 (5th Cir. 1987) (holding
that a former employee was protected from his
employer’s discontinuance of severance pay under the
ADEA’s
anti-retaliation provision). Moreover,
straightforward application of the ejusdem generis
canon cuts in favor of finding ambiguity, not clarity,
because the terms “threatened” and “harassed”—
which can both occur post-employment—are still
specific terms that control that general catchall
phrase. As in Robinson, here, no temporal qualifier
indicates that the statute applies only to current
employees.
The second Robinson consideration—which directs
our review to the statutory and dictionary definition
of “employee”—also shows that the FCA could cover
former employees. The FCA does not define
“employee,” but in this case, dictionary definitions
suffice. See Vander Boegh v. EnergySolutions, Inc.,
772 F.3d 1056, 1060 (6th Cir. 2014) (holding that an
applicant was not an “employee” under § 3730(h)’s
plain meaning). Beaumont contends that the
dictionary definitions cited in Vander Boegh confine
the plain meaning of “employee” to current employees.
But the Supreme Court rejected a similar argument
in Robinson:
The argument that the term “employed” . . . is
commonly used to mean “[p]erforming work
under an employer-employee relationship,”

10a
Black’s Law Dictionary 525 (6th ed. 1990), begs
the question by implicitly reading the word
“employed” to mean “is employed.” But the
word “employed” is not so limited in its possible
meanings, and could just as easily be read to
mean “was employed.”
519 U.S. at 342, 117 S.Ct. 843.1 Also, that the FCA’s
anti-retaliation provision excludes applicants—
framed in Vander Boegh as “potential employees”—
does not mean that former employees are likewise
excluded from its purview. 772 F.3d at 1062. In order
to be either a current or former employee, an
employment relationship must have formed. A job
applicant has never performed work as an employee
for the employer; both current and former employees,
by definition, have.
Third, here, as in Robinson, other aspects of the
statutory framework also support a reading that the
FCA covers former employees. The FCA’s remedial
provision allows former employees to seek relief for
post-termination retaliation.2 For example, a former
1

This Court in Vander Boegh and the Supreme Court in
Robinson were using different editions of Black’s Law
Dictionary, but the principle applies equally to both editions.
2

The dissent notes that the term “employee” elsewhere in the
FCA seems to refer only to current employees. Dissent at 438.
That possibility does not remove the ambiguity of the term as
used in § 3730(h), especially as Robinson acknowledges that the
context of different sections of a statute can indicate that “the
term ‘employee’ refers unambiguously to a current employee”
without necessarily showing “that the term has the same
meaning in all other sections and in all other contexts.” 519 U.S.
at 343, 117 S.Ct. 843. Ambiguity requires only “that the term
‘employees’ includes former employees in some sections, but not
in others.” Id.

11a
employee can obtain “reinstatement” as one type of
relief under the statute. See 31 U.S.C. § 3730(h)(2)
(“Relief under paragraph (1) shall include
reinstatement . . . .”). A plaintiff, by definition, must
be a former employee; after all, only someone who has
lost a job can be reinstated.
Likewise, the provision for special damages can
provide relief to former employees. That provision
explicitly remedies “discrimination”—misconduct
that is not dependent on whether the plaintiff is still
an employee. See § 3730(h)(2) (“Relief . . . shall include
. . . compensation for any special damages sustained
as a result of the discrimination . . . .”).3
Also, the catch-all wording of the relief provision can
support application of the FCA to former employees.
The use of “shall include,” especially in combination
with an employee’s “entitle[ment] to all relief
necessary to make that employee . . . whole,”
demonstrates that the list of remedies is not
exhaustive. § 3730(h)(1), (2); see Samantar v. Yousuf,
560 U.S. 305, 317, 130 S.Ct. 2278, 176 L.Ed.2d 1047
3

Indeed, courts have held that the provision for special damages
under the FCA is broad and, therefore, can include unlisted
remedies such as front pay or noneconomic compensatory
damages—remedies that are not necessarily restricted to current
employees. E.g., Brandon v. Anesthesia & Pain Mgmt. Assocs.,
Ltd., 277 F.3d 936, 944 (7th Cir. 2002); Hammond v. Northland
Counseling Ctr., Inc., 218 F.3d 886, 893 (8th Cir. 2000)
(“Damages for emotional distress caused by an employer’s
retaliatory conduct plainly fall with this category of ‘special
damages.’ ”); Wilkins v. St. Louis Hous. Auth., 198 F. Supp. 2d
1080, 1091 (E.D. Mo. 2001) (awarding front pay “to effect the
express Congressional intention that a claimant under
§ 3730(h) be made whole” even though “the FCA does not
specifically include front pay as a remedy”).

12a
(2010) (“It is true that use of the word ‘include’ can
signal that the list that follows is meant to be
illustrative rather than exhaustive.”).4 This expansive
catch-all language further shows that remedies exist
regardless of whether the plaintiff is still employed.
Beaumont argues that those remedies do not
necessarily establish that former employees are
entitled to relief. It contends, for example, that
reinstatement should be limited to people who were
employees when the wrongful conduct occurred. But
the text does not contain that limitation. Under
§ 3730(h)(1), a person out of a job can get the job back
as a remedy for the proscribed conduct, regardless of
when the wrongful act occurred. Furthermore, the fact
that the FCA explicitly creates a cause of action for
wrongful discharge, while Title VII prohibits
employment discrimination more broadly, is not a
meaningful difference in this context. True,
reinstatement can be a remedy for wrongful
discharge, but that does not change the fact that it
could be a remedy for post-termination retaliation as
well. The Supreme Court in Robinson explicitly
invoked the likelihood of a former employee alleging
4

See also BellSouth Telecomms., Inc. v. Ky. Pub. Serv. Comm’n,
669 F.3d 704, 713 (6th Cir. 2012) (citing Samantar); Project
Vote/Voting for Am., Inc. v. Long, 682 F.3d 331, 337 (4th Cir.
2012) (“Courts have repeatedly indicated that ‘shall include’ is
not equivalent to ‘limited to.’ ”). Courts of Appeals have also held
that similar language in the Sarbanes-Oxley Act precedes a nonexhaustive list of available relief, empowering courts to award
relief for emotional distress. See Jones v. Southpeak Interactive
Corp., 777 F.3d 658, 672 (4th Cir. 2015); Halliburton, Inc. v. Admin. Review Bd., 771 F.3d 254, 264–65 (5th Cir. 2014); Lockheed
Martin Corp. v. Admin. Review Bd., 717 F.3d 1121, 1138 (10th
Cir. 2013).

13a
wrongful discharge as support for the proposition that
Title VII encompasses former employees, recognizing
that because the remedy of reinstatement necessarily
applied to former employees, former employees were
covered under Title VII whether they were suing in
response to a discriminatory discharge or postemployment retaliation. 519 U.S. at 342–43, 117 S.Ct.
843.
In short, we could read the statute in two ways:
applying only to current employees or reaching those
who have lost their jobs. We think the latter is the
more accurate reading. But given the Supreme
Court’s guidance in Robinson, we ultimately hold that
the term “employee,” as used in the statute, is
ambiguous.
When confronted with similar ambiguity, the
Robinson Court looked to the “broader context of Title
VII and the primary purpose of § 704(a)” to hold that
former employees were covered by Title VII’s antiretaliation protections. 519 U.S. at 345–46, 117 S.Ct.
843. The lack of statutory clarity here compels an
analogous approach. As discussed, the FCA’s remedial
provision indicates that former employees may sue
under § 3730(h). And Robinson found it relevant that
excluding former employees from the protections of
Title VII would “effectively vitiate much of the
protection afforded by [the statute]” because it would
deter reporting to the government and “provide a
perverse incentive for employers to fire employees
who might bring Title VII claims.” Id. So too here. The
FCA is designed to “discourage fraud against the
government,” Robertson v. Bell Helicopter Textron,
Inc., 32 F.3d 948, 951 (5th Cir. 1994), and the purpose
of the Act’s anti-retaliation provision is to encourage

14a
the reporting of fraud and facilitate the federal
government’s ability to stymie crime by “protect[ing]
persons who assist [in its] discovery and prosecution,”
Neal v. Honeywell Inc., 33 F.3d 860, 861 (7th Cir.
1994), abrogated on other grounds by Graham Cty.
Soil & Water Conservation Dist. v. United States ex
rel. Wilson, 545 U.S. 409, 125 S.Ct. 2444, 162 L.Ed.2d
390 (2005)). If employers can simply threaten, harass,
and discriminate against employees without
repercussion as long as they fire them first, potential
whistleblowers could be dissuaded from reporting
fraud against the government. See Haka v. Lincoln
Co., 533 F. Supp. 2d 895, 917 (W.D. Wis. 2008)
(holding that the reasoning in Robinson applied
equally to the FCA and that including former
employees “was necessary to effectuate the provision’s
primary purpose: ‘[m]aintaining unfettered access to
statutory remedial mechanisms.’ ” (quoting Robinson,
519 U.S. at 346, 117 S.Ct. 843)). We therefore hold
that the anti-retaliation provision of the FCA may be
invoked by a former employee for post-termination
retaliation by a former employer.
We acknowledge that our decision creates a circuit
split. Our analysis differs from that of the Tenth
Circuit primarily with regard to Robinson’s first and
third factors: whether the statute includes a temporal
qualifier and whether other provisions envision both
current and former employees. We deem it a better fit
with all of Robinson’s considerations to construe
§ 3730(h)(1) to effectuate the statute’s broader context
and purpose.
III.
Finally, Felten argues for the first time on appeal
that the “terms and conditions of employment”

15a
provision of § 3730(h) includes blacklisting. Although
the district court invoked the “terms and conditions of
employment” qualifier as a reason why postemployment retaliatory action did not fall within the
FCA’s ambit, it did not address whether blacklisting
is included as a form of prohibited retaliatory action.
Thus, we do not address the issue; instead, we remand
for the district court to consider the issue in the first
instance. See Child Evangelism Fellowship of Ohio,
Inc. v. Cleveland Metro. Sch., 600 F. App’x 448, 453
(6th Cir. 2015) (“We generally do not consider issues
left unaddressed by the district court.”).
IV.
We vacate the district court’s order granting
Beaumont’s motion to partially dismiss Felten’s first
amendment to his complaint and remand for further
proceedings consistent with this opinion.

16a
DISSENT
GRIFFIN, Circuit Judge, dissenting.
This case asks if the word “employee,” when used in
the False Claims Act (“FCA”), refers to someone who
is not an employee. To ask the question is to answer
it. Instead of applying tried-and-true tools of statutory
interpretation to their logical end, the majority rushes
to find ambiguity then divines congressional intent
from its own perception of which reading would best
serve the FCA’s “broader context and purpose.” As a
result, the majority’s opinion creates a circuit split
and contradicts the decision of nearly every other
federal court that has considered whether the FCA’s
anti-retaliation provision extends to former
employees. Because the FCA unambiguously reserves
retaliation claims for only those plaintiffs who were
employees when they were retaliated against, I
respectfully dissent.
I.
The only question before us is whether the FCA’s
anti-retaliation provision prohibits retaliation against
former employees. “A matter requiring statutory
interpretation is a question of law requiring de novo
review, and the starting point for interpretation is the
language of the statute itself.” Roberts v. Hamer, 655
F.3d 578, 582 (6th Cir. 2011) (internal quotation
marks and citation omitted). “If the words are plain,
they give meaning to the act, and it is neither the duty
nor the privilege of the courts to enter speculative
fields in search of a different meaning.” Id. at 583
(citation omitted). The FCA’s anti-retaliation
provision provides:

17a
Any employee, contractor, or agent shall be
entitled to all relief necessary to make that
employee, contractor, or agent whole, if that
employee, contractor, or agent is discharged,
demoted, suspended, threatened, harassed, or
in any other manner discriminated against in
the terms and conditions of employment
because of lawful acts done by the employee,
contractor, agent or associated others in
furtherance of an action under this section or
other efforts to stop 1 or more violations of this
subchapter.
31 U.S.C. § 3730(h)(1). This is not the first time that
we have examined the plain meaning of “employee,”
as used in this provision. We have said that, for the
purposes of the FCA’s anti-retaliation provision, an
employee is “[s]omeone who works in the service of
another person (the employer) under an express or
implied contract of hire, under which the employer
has the right to control the details of work
performance,” Vander Boegh v. EnergySolutions, Inc.,
772 F.3d 1056, 1060 (6th Cir. 2014) (quoting Black’s
Law Dictionary 639 (10th ed. 2014)), or “ ‘[a] person
working for another person or a business firm for
pay,’ ” id. (quoting Random House Webster’s
Unabridged Dictionary 638 (2001)). Id. at 1062.
Thus, under our precedent and the plain language
of the statute, whether a former employee falls within
the definition of “employee” is a straightforward
inquiry: does a former employee work in the service of
his former employer under a contract of hire or for
pay? The answer is “no,” otherwise he would not be a

18a
former employee. This alone mandates affirming the
district court.1
If our precedent and the statute’s plain language
were not enough, the specific context in which
“employee” is used also compels the conclusion that
former employees are beyond the anti-retaliation
provision’s scope. To have a cause of action, a plaintiff
must have been “discharged, demoted, suspended,
threatened, harassed, or in any other manner
discriminated against in the terms and conditions of
employment.” 31 U.S.C. 3730(h)(1). Of these six
categories of retaliatory acts, four can be committed
only during employment: only a current employee can
be discharged, demoted, suspended, or discriminated
against in the terms and conditions of employment.
True, a former employer could harass or threaten a
former employee. But the canon of noscitur a sociis
requires us to temporally limit the scope of these
undefined terms. This canon instructs that “the
meaning of an undefined term may be deduced from
1

Felten argues that Vander Boegh supports his position that
former employees may bring retaliation claims based on postemployment conduct because there we observed that one portion
of the FCA’s legislative history “suggest[ed] that ‘employee’
extends to former employees, as well as present employees.” 772
F.3d at 1063. But Felten concedes that this observation is dicta,
and therefore nonbinding on this panel. See, e.g., Johnson v. City
of Cincinnati, 310 F.3d 484, 493 (6th Cir. 2002). Moreover, even
if Vander Boegh’s observation regarding the FCA’s legislative
history is accurate, it is irrelevant. A court may look to legislative
history only when “a plain reading leads to ambiguous or
unreasonable results.” United States v. Vreeland, 684 F.3d 653,
662 (6th Cir. 2012) (citation omitted); see also Chrysler Corp. v.
C.I.R., 436 F.3d 644, 654 (6th Cir. 2006). Here, a plain reading of
the FCA merely reserves retaliation claims for plaintiffs who
were employees when they were retaliated against.

19a
nearby words.” United States v. Miller, 734 F.3d 530,
541 (6th Cir. 2013). This “associated-words” canon
provides that, when words “are associated in a context
suggesting that the words have something in common,
they should be assigned a permissible meaning that
makes them similar.” Antonin Scalia & Bryan A.
Garner, Reading Law: The Interpretation of Legal
Texts 195 (2012). Specifically, this canon holds that
“words grouped in a list should be given related
meanings.” Id. (quoting Third Nat’l Bank in Nashville
v. Impac Ltd., 432 U.S. 312, 322, 97 S.Ct. 2307, 53
L.Ed.2d 368 (1977)).
The meanings of “threatened” and “harassed” must
therefore be consistent with their neighbors, all of
which are temporally limited to current employment.
Thus, “threatened” and “harassed” are likewise
limited to existing employer-employee relationships,
which places post-employment retaliation against
former employees beyond the reach of the antiretaliation provision.
A second canon of statutory interpretation, ejusdem
generis, further confirms this temporal limitation.
Ejusdem generis dictates that “where general words
follow specific words in a statutory enumeration, the
general words are construed to embrace only objects
similar in nature to those objects enumerated by the
preceding specific words.” Miller, 734 F.3d at 541
(citation omitted). “[W]hen a drafter has tacked on a
catchall phrase at the end of an enumeration of
specifics,” ejusdem generis implies the addition of the
word “similar” between the last specific and the
catchall phrase. Scalia & Garner, supra., at 199.
The FCA’s anti-retaliation provision lists five
specific categories of retaliatory conduct, then

20a
includes a catchall phrase that applies to employees
who have been “in any other manner discriminated
against in the terms and conditions of employment.”
31 U.S.C. § 3730(h)(1). Ejusdem generis limits the
catchall phrase’s scope to discriminations that are
similar to discharges, demotions, suspensions,
threats, and harassment. And these general
discriminations are actionable only if they occur in the
terms and conditions of employment. Id. To comply
with ejusdem generis, threats and harassment must
also be prohibited only if they occur during the
employment relationship.
We should also look to other portions of the FCA. “A
standard principle of statutory construction provides
that identical words . . . within the same statute
should normally be given the same meaning.” Powerex
Corp. v. Reliant Energy Servs., Inc., 551 U.S. 224, 232,
127 S.Ct. 2411, 168 L.Ed.2d 112 (2007). The FCA is
not a particularly long statute, and it uses the word
“employee” in only a few other provisions. None of
these other uses can be reasonably read as “former
employee.” For example, the FCA provides that “[n]o
court shall have jurisdiction over an action brought
[by a private person] against . . . a senior executive
branch official if the action is based on evidence or
information known to the Government when the
action was brought.” 31 U.S.C. § 3730(e)(2)(A).
“[S]enior executive branch official” is in turn defined
as “any . . . employee listed in paragraphs (1) through
(8) of section 101(f) of the Ethics in Government Act of
1978,” 31 U.S.C. § 3730(e)(2)(B), which includes a
huge swath of the executive branch, from the
President, 5 U.S.C. App.4 § 101(f)(1), to the Social
Security Administration’s many administrative law

21a
judges, id. at § 101(f)(4). If, when used in the FCA,
“employee” means “former employee,” then thousands
of executive branch officials receive lifetime immunity
from certain qui tam suits on their first day of work.
This immunity, which makes it more difficult to
enforce the FCA, would not align with the statute’s
purported goal of reducing fraud against the
government.
Or consider a provision at the very heart of the act:
the definition of “claim.” The FCA defines “claim” as
“any request or demand . . . for money or property . . .
that . . . is presented to an officer, employee, or agent
of the United States.” 31 U.S.C. § 3729(b)(2). Suppose
a federal employee quits her government job and
starts her own business. If one of her vendors sends
her a false claim, has it violated the FCA? Of course
not; she was not a United States employee when the
vendor presented her with the false claim. But under
the majority’s interpretation of the word “employee,”
the vendor could be liable under the FCA for
submitting a false claim to a former United States
employee.
Finally, persuasive case law supports affirming the
district court. Nearly every federal court that has
considered whether the FCA’s anti-retaliation
provision is temporally limited to current employees—
including a unanimous panel of the only other circuit
court of appeals to have examined that question—has
reached the same conclusion: the FCA’s antiretaliation provision does not apply to postemployment retaliation. See Potts v. Ctr. for Ex-

22a
cellence in Higher Educ., 908 F.3d 610, 613–16 (10th
Cir. 2018).2
II.
In response to this overwhelming authority, the
majority contends that we are bound to follow
“guidelines,” purportedly established in Robinson v.
Shell Oil, 519 U.S. 337, 117 S.Ct. 843, 136 L.Ed.2d 808
(1997), that “determine[e] when a statute’s meaning
is not plain in the context of protections for
employees[.]” I see nothing in Robinson that exempts
the word “employee” from its plain meaning or the
tools of statutory interpretation that I apply above.
Nor does anything in that case suggest that the
2

See also, e.g., United States ex rel. Head v. Kane Co., 798 F.
Supp. 2d 186, 208 (D.D.C. 2011) (“The plain language . . . clearly
establishes that Section 3730(h) applies only to the employment
context and, therefore, cannot extend to claims for retaliatory
action occurring solely after a plaintiff has been terminated from
his job.”); United States ex rel. Complin v. North Carolina Baptist
Hosp., 2019 WL 430925, at *10 (M.D.N.C. Feb. 4, 2019);
Elkharwily v. Mayo Holding Co., 84 F. Supp. 3d 917, 927 n.7 (D.
Minn. 2015), aff’d on other grounds, 823 F.3d 462 (8th Cir. 2016);
United States ex rel. Tran v. Computer Scis. Corp., 53 F. Supp.
3d 104, 138 (D.D.C. 2014); Weslowski v. Zugibe, 14 F. Supp. 3d
295, 306 (S.D.N.Y. 2014); Master v. LHC Group Inc., No. 07-1117,
2013 WL 786357, at *6 (W.D. La. March 1, 2013); Bechtel v.
Joseph Med. Ctr., No. MJG-10-3381, 2012 WL 1476079, at *9–10
(D. Md. Apr. 26, 2012); Poffinbarger v. Priority Health, No. 1:11CV-993, 2011 WL 6180464, at *1 (W.D. Mich. Dec. 13, 2011);
United States ex rel. Davis v. Lockheed Martin Corp., 2010 WL
4607411, *8 (N.D. Tex. 2010); United States ex rel. Wright v. Cleo
Wallace Ctrs., 132 F. Supp. 2d 913, 928 (D. Colo. 2000). The
minority of courts have, like my colleagues, mistakenly
transplanted Robinson from the Title VII context to the FCA
context. See Ortino v. Sch. Bd. of Collier Cty., 2015 WL 1579460,
at *3–4 (M.D. Fla. April 9, 2015); Haka v. Lincoln Cty., 533 F.
Supp. 2d 895, 917 (W.D. Wis. 2008).

23a
Supreme Court was inventing new theories of
interpretation that apply only to “protections for
employees.” And it is odd that the majority cites
McKnight v. General Motors Corp., 550 F.3d 519 (6th
Cir. 2008), for this remarkable assertion. The
“roadmap” that we described Robinson as laying out
in that case related only to run-of-the-mill principles
of statutory interpretation, such as looking first to a
statute’s plain language. See id. at 524–25. We have
never recognized Robinson as establishing special
rules for employee protections. In fact, we have
explicitly concluded that “Robinson did not alter the
rules of statutory interpretation,” and have declined
to extend Robinson’s reasoning beyond the Title VII
context. Id. at 527–28. Simply put, the majority’s
belief that Robinson—a Title VII case—created
employee-specific interpretative “guidelines” that
compel reversal in this FCA case is baseless.
Nor does Robinson’s reasoning “appl[y] with equal
force to the FCA’s anti-retaliation provision.” As the
majority
notes,
Robinson
relied
on
three
considerations to find that Title VII’s anti-retaliation
provision’s use of the word “employee” was
ambiguous. First, the Court noted that “there is no
temporal qualifier in the statute such as would make
plain that [42 U.S.C. § 20000e-3(a)] protects only
persons still employed at the time of the retaliation.”
Id. at 341, 117 S.Ct. 843. Second, the Court noted that
Title VII’s general definition of “employee” as “an
individual employed by an employer,” “likewise lacks
any temporal qualifier and is consistent with either
current or past employment.” Id. at 342, 117 S.Ct. 843
(quoting 42 U.S.C. § 2000e(f)). The Court reasoned
that “employed” could just as easily be read to mean

24a
“was employed” as “is employed.” Id. (emphases
omitted). Third, the Court noted that “a number of
other provisions in Title VII use the term ‘employees’
to mean something more inclusive or different than
‘current employees.’ ” Id. The Court then resolved this
ambiguity in favor of including former employees into
the anti-retaliation provision’s definition of
“employee.” The Court concluded that this
interpretation was more aligned with Title VII’s
broader context and the anti-retaliation provision’s
primary purpose. Id. at 345–46, 117 S.Ct. 843.
None of the three Robinson considerations are
present here. First, the FCA’s anti-retaliation
provision has a temporal limitation. To have a
retaliation claim, a person must have been
“discharged, demoted, suspended, threatened,
harassed, or in any other manner discriminated
against in the terms and conditions of employment.”
31 U.S.C. 3730(h). 3 As explained above, these
categories limit plaintiffs to those people who were
employees when they were subject to retaliation.
Second, the FCA does not contain a general definition
for “employee” (ambiguous or otherwise) so we must
apply that word’s “ordinary and natural meaning.”
United States v. Lumbard, 706 F.3d 716, 723 (6th Cir.
3

In contrast, Title VII’s anti-retaliation provision provides:
It shall be an unlawful employment practice for an
employer to discriminate against any of his employees . . .
because he has opposed any practice made an unlawful
employment practice by this subchapter, or because he
has made a charge, testified, assisted, or participated in
any manner in an investigation, proceeding, or hearing
under this subchapter.

42 U.S.C. § 2000e-3(a).

25a
2013). And the plain meanings of “employee” that we
have previously recognized have temporal limitations
that denote a present, continuing employer-employee
relationship. Vander Boegh, 772 F.3d at 1060, 1062.
Third, in contrast to Title VII, no other provision of
the FCA uses the term “employee” to mean anything
different or more inclusive than its ordinary meaning.
The majority contends that the anti-retaliation
provision’s remedies section, § 3730(h)(2), shows that
Congress intended former employees to qualify for
relief. In particular, the majority highlights that the
non-exhaustive list of remedies available to
retaliated-against employees includes reinstatement
and special damages. But the majority’s consideration
of this section misses the point. Nobody disputes that
former employees can obtain relief under the antiretaliation provision. For example, the FCA creates a
specific cause of action for retaliatory discharge,
which can be brought only by discharged (former)
employees. Or an employee might quit or retire after
their employer mistreats them because of their FCAprotected activity. These former employees, however,
would have been current employees when they were
retaliated against. The relevant consideration is not
the employment status of the plaintiff at the time of
suit, but rather the employment status of the plaintiff
at the time of retaliation. See Potts, 908 F.3d at 614
(“[W]hat matters is the employee’s employment status
when the employer retaliates.”). Thus, the remedies
provision is perfectly consistent with the statute’s
reservation of claims to employees.
In sum, our precedent, dictionary definitions, the
canons of statutory interpretation, and persuasive
case law indicate that “employee” does not mean

26a
“former employee,” and Robinson neither compels nor
supports a contrary conclusion. The word “employee,”
as used in the FCA, is not ambiguous. Because
plaintiff was not an employee when he was allegedly
blacklisted, we should affirm the district court.
III.
One final note. After the majority finds ambiguity,
it determines which result the FCA should achieve. In
doing so, it engages in unauthorized, unnecessary
purposivism. See Scalia & Garner, supra., at 18
(“Where purpose is king, text is not—so the
purposivist goes around or behind the words of the
controlling text to achieve what he believes to be the
provision’s purpose.”). Purposivism “suggests courts
can simply ignore the enacted text and instead
attempt to replace it with an amorphous ‘purpose’ that
happens to match with the outcome one party wants.”
Arangure v. Whitaker, 911 F.3d 333, 345 (6th Cir.
2018). But Congress establishes a statute’s purpose
“by negotiating, crafting, and enacting statutory text,”
and “[i]t is that text that controls, not a court’s afterthe-fact reevaluation of the purposes behind it.” Id.
The majority is well-aware of the dangers of
purposivism yet proceeds to replace Congress’s
judgment with its own. Although attempting to
discern a statute’s purpose might be permissible
when, as in Robinson, the text is ambiguous, the
circumstances of this case do not authorize such an
amorphous inquiry. Congress unambiguously told us
that the anti-retaliation provision applies only to
“employees,” so this Court lacks the authority to
rewrite that term to define anything broader,
narrower, or different than its plain meaning. That
task should be left to Congress.

27a
IV.
For these reasons, I respectfully dissent.

28a
APPENDIX B
_________
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
_______
UNITED STATES OF AMERICA
and STATE OF MICHIGAN,
Plaintiffs,
ex rel. DAVID FELTEN, M.D., Ph.D., et al.,
Plaintiffs/Relators
v.
WILLIAM BEAUMONT HOSPITALS, et al.,
Defendants.
_______
Case Nos. 2:10-cv-13440
2:11-cv-12117
2:11-cv-12515
2:11-cv-14312
_______
Dated: July 1, 2019
_______
HONORABLE STEPHEN J. MURPHY, III
_______

29a
OPINION AND ORDER GRANTING
DEFENDANT WILLIAM BEAUMONT
HOSPITALS’ MOTION TO PARTIALLY
DISMISS RELATOR FELTEN’S FIRST
AMENDMENT TO COMPLAINT [114]
_______
STEPHEN J. MURPHY, III, United States District
Judge
On August 27, 2018, after the parties settled and
stipulated to dismissing the majority of the case,
Relator David Felten, M.D., Ph.D., filed an amended
complaint and added more recent allegations to his
retaliation claim. ECF 97. 1 On October 26, 2018,
Defendant
William
Beaumont
Hospitals
(“Beaumont”) filed a motion to partially dismiss
Felten’s amended complaint. ECF 114. Beaumont
argues that the majority of the allegations in Felten’s
amended complaint are either (1) untimely, or
(2) beyond the scope of conduct that 31 U.S.C.
§ 3730(h) covers. Id. at 1770–71. Beaumont does not
seek to dismiss Felten’s claim for retaliation based on
Beaumont allegedly halving Felten’s budget while
still expecting him to accomplish the same goals prior
to Felten filing the complaint. See id. at 1771. The
Court reviewed the briefs and finds that a hearing is
unnecessary. See E.D. Mich. LR 7.1(f). For the reasons
below, the Court will grant the motion.
BACKGROUND
On August 30, 2010, Felten filed a qui tam
complaint and alleged that Beaumont was violating
the federal False Claims Act (“FCA”) and the
1

All case citations are to 2:10-cv-13440.

30a
Michigan Medicaid False Claims Act (“MMFCA”) and
was retaliating against him in violation of both federal
and Michigan law. See generally ECF 1. Felten alleged
that Beaumont paid improper remuneration to
various physicians and physicians’ groups in
exchange for referrals of Medicare, Medicaid, and
TRICARE patients to Beaumont in violation of the
Anti-Kickback Statute (“AKS”)2 and Stark Laws. Id.
He also alleged that Beaumont retaliated against him
in violation of 31 U.S.C. § 3730(h) and Mich. Comp.
Laws § 400.610c by “continuously and increasingly
marginaliz[ing him] due to his insistence that the
laws and regulations of the United States be complied
with.” Id. at 91, 95–96.
The Government intervened, and the parties settled
most of the case. The Court, on stipulation of the
parties, dismissed all claims except the Relators’
claims for attorneys’ fees and costs and for retaliation.
ECF 87, 88. Felten then amended his complaint to add
allegations to his retaliation claim regarding conduct
that occurred after he filed his initial complaint. ECF
97. Beaumont filed a motion to partially dismiss the
amended complaint. ECF 114. Beaumont now seeks
to dismiss all of Felten’s claims except his claim for
retaliation based on his marginalization before he
filed the qui tam complaint, which is similar to the
retaliation claim in his initial complaint. See id. at
1771.
STANDARD OF REVIEW
When analyzing a motion to dismiss under Civil
Rule 12(b)(6), the Court views the complaint in the
light most favorable to the plaintiff, presumes the
2

42 U.S.C. § 1320a-7b(b)(1)–(c)

31a
truth of all well-pleaded factual assertions, and draws
every reasonable inference in favor of the non-moving
party. Bassett v. Nat’l Collegiate Athletic Ass’n, 528
F.3d 426, 430 (6th Cir. 2008). To survive a motion to
dismiss, “the complaint must contain either direct or
inferential allegations respecting all the material
elements to sustain a recovery under some viable legal
theory.” Nat’l Hockey League Players Ass’n v.
Plymouth Whalers Hockey Club, 419 F.3d 462, 468
(6th Cir. 2005) (citation omitted). It must allege facts
“sufficient ‘to raise a right to relief above the
speculative level,’ and to ‘state a claim to relief that is
plausible on its face.’ ” Hensley Mfg. v. ProPride, Inc.,
579 F.3d 603, 609 (6th Cir. 2009) (quoting Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 555, 570 (2007)).
The Court must analyze a Rule 12(c) motion for
judgment on the pleadings with the same standard it
would employ for a 12(b)(6) motion to dismiss. Tucker
v. Middleburg-Legacy Place, LLC, 539 F.3d 545, 549
(6th Cir. 2008) (citation omitted). The Court accepts
as true all well-pleaded material allegations and
draws reasonable factual inferences in favor of the
non-moving party, but “need not accept as true legal
conclusions or unwarranted factual inferences.”
JPMorgan Chase Bank, N.A. v. Winget, 510 F.3d 577,
581–82 (6th Cir. 2007) (quoting Mixon v. Ohio, 193
F.3d 389, 400 (6th Cir. 1999)). The complaint must not
only “give the defendant fair notice of what the claim
is and the grounds upon which it rests,” Nader v.
Blackwell, 545 F.3d 459, 470 (6th Cir. 2008) (quoting
Erickson v. Pardus, 551 U.S. 89, 93 (2007)), but also
“ ‘raise a right to relief above the speculative level,’
and … ‘state a claim to relief that is plausible on its
face.’ ” Hensley, 579 F.3d at 609 (quoting Twombly,

32a
550 U.S. at 555, 570). It is not enough to merely offer
“ ‘labels and conclusions’ or ‘a formulaic recitation of
the elements of a cause of action[.]’ ” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (quoting Twombly, 550 U.S.
at 555).
DISCUSSION
Beaumont seeks judgment on the pleadings as to
several of Felten’s retaliation allegations because the
allegations are time-barred. ECF 114, PgID 1770–71.
Beaumont also seeks to dismiss several of Felten’s
additional retaliation allegations for failure to state a
claim under Rule 12(b)(6) because the allegations
include conduct after the end of Felten’s employment
at Beaumont and the relevant retaliation statute
covers only current employees. Id. at 1771. The Court
will address each argument in turn.
I. Relation Back
First, Beaumont seeks judgment on the pleadings as
to certain retaliation allegations in Felten’s amended
complaint because they are time-barred. The statute
of limitations for a retaliation claim under 31 U.S.C.
§ 3730(h) and under Mich. Comp. Laws § 400.610c is
three years. See 31 U.S.C. 3730(h)(3); United States ex
rel. Yanity v. J&B Med. Supply Co., No. 08–11825,
2012 WL 4811288, at *5 (E.D. Mich. Oct. 10, 2012)
(finding that when the state false claims act lacks a
limitations period it is governed by the state’s general
tort statute of limitations, and concluding that in
Michigan the applicable limitations period is three
years).3 Felten filed his amended complaint on August
27, 2018. ECF 97. Any allegations that predate
3

Felten does not dispute either statute of limitations. See ECF
132, PgID 2419, n.2.

33a
August 27, 2015 are therefore time-barred unless they
relate back to Felten’s initial 2010 complaint.
“An amendment to a pleading relates back to the
date of the original pleading when … the amendment
asserts a claim or defense that arose out of the
conduct, transaction, or occurrence set out—or
attempted to be set out—in the original pleading.”
Fed. R. Civ. P. 15(c)(1)(B). The Sixth Circuit analyzes
questions of relation back “not by generic or ideal
notions of what constitutes a ‘conduct, transaction, or
occurrence,’ but instead by asking whether the party
asserting the statute of limitations defense had been
placed on notice that he could be called to answer for
the allegations in the amended pleading.” United
States ex rel. Bledsoe v. Cmty. Health Sys., Inc., 501
F.3d 493, 516 (6th Cir. 2007). And here, there are
several reasons why Felten’s original complaint did
not adequately put Beaumont on notice about the new
retaliation allegations he added in his amended
complaint.
First, the original complaint was sealed, so it is
unclear whether that provided Beaumont sufficient
notice of any of Felten’s claims for purposes of relation
back. See, e.g., Hayes v. Dept. of Educ. of New York
City, 20 F. Supp. 3d 438, 449–51 (S.D.N.Y. 2014).
Second, the new retaliation allegations in Felten’s
amended complaint are based on actions taken after
the original complaint was filed. See Kellett v.
Memphis Light, Gas & Water, No. 2:11-cv-3045-JTFtmp, 2013 WL 6418997, at *4 (W.D. Tenn. Dec. 9,
2013) (adopting report and recommendation of the
magistrate judge holding that relation back does not
apply to a new retaliation claim when the conduct
underlying the new claim occurred after the original

34a
complaint was filed, even though the original
complaint included a retaliation claim based on other,
prior conduct).
Finally, there is not a sufficient “common ‘core of
operative facts’ ” between Felten’s original retaliation
allegations and his newly added allegations to find
that the original complaint put Beaumont on notice
that it would be called to answer for the conduct
alleged in the amended complaint. Mayle v. Felix, 545
U.S. 644, 659 (2005) (citation omitted). The
relationship between the retaliation allegations in
Felten’s original and amended complaints more
closely resembles the cases Mayle lists as not allowing
relation back than the ones it lists as allowing relation
back.See id. at 657–59 (collecting cases). The circuit
courts have found relation back in cases when new
legal theories were applied to the same facts alleged
in the original complaint or when an extra time period
of identical, automatically-repeating conduct was
added. See id. (collecting cases). But they have refused
to find relation back when the amendments assert
additional instances of wrongful conduct by the same
defendant. Id. (collecting cases).
Here, Felten’s retaliation claim in his original
complaint alleged only that Beaumont was
marginalizing his influence because of his insistence
that Beaumont comply with applicable laws. ECF 1,
PgID 91. But the contested allegations in his amended
complaint detail a series of actions Beaumont took to
find out whether Felten was a whistleblower and then
to suspend him, fire him, and prevent him from
obtaining employment elsewhere because it
discovered that he was a whistleblower. See ECF 97,
PgID 1249–52. The new retaliation allegations

35a
describe conduct that occurred after Felten filed his
original complaint and in response to him filing the
complaint. The conduct—going through his personal
belongings, suspending him, and firing him—is also
different in kind than the prior conduct of
marginalizing his influence within the hospital.
Felten’s original, sealed complaint did not notify
Beaumont that it would be called to answer for
conduct that allegedly occurred in response to the
complaint. His new retaliation allegations do not
relate back to his original complaint. Beaumont is
therefore entitled to judgment on the pleadings on all
challenged pre-August 27, 2015 allegations.4
II. Timely Allegations
Felten alleges that Beaumont terminated his
employment in December 2014. ECF 97, 1260–61.
Felten’s timely allegations—those alleging postAugust 27, 2015 conduct—therefore allege posttermination conduct. Beaumont seeks to dismiss
Felten’s allegations regarding post-termination
retaliation and submits that the retaliation provisions
of the FCA and the MMFCA do not apply to actions
taken after an employee is terminated. See ECF 114,
PgID 1793–98. The FCA provides a cause of action for
“[a]ny employee, contractor, or agent” who is
“discharged, demoted, suspended, threatened,
harassed, or in any other manner discriminated
4

Nothing prevented Felten from amending his complaint to
timely add his new retaliation provisions during the seal period,
as evidenced by the amended complaints filed by his co-relators
during that time. See In re: Sealed Matter, No. 2:11-cv-12117,
ECF 8 (Carbone’s November 9, 2011 amended complaint); In re:
Sealed Matter, No. 2:11-cv-14312, ECF 27 (Houghton’s May 27,
2016 amended complaint).

36a
against in the terms and conditions of employment”
because he took lawful action in furtherance of an
FCA lawsuit. 31 U.S.C. § 3730(h)(1). And the MMFCA
provides that “[a]n employer shall not discharge,
demote, suspend, threaten, harass, or in any other
manner, discriminate against an employee in the
terms and conditions of employment” because he took
lawful action in furtherance of an MMFCA lawsuit.
Mich. Comp. Laws § 400.610c.
“The overwhelming majority of courts that have
considered the issue have found that § 3730(h)(1) does
not apply to post-employment retaliation.” Potts v.
Ctr. for Excellence in Higher Ed., 244 F. Supp. 3d
1138, 1143 (D. Colo. 2017) (collecting cases). And,
although the Sixth Circuit noted that the legislative
history of the FCA “suggests that ‘employee’ extends
to former employees,” it did so in dicta and after
concluding that 31 U.S.C. § 3730(h)(1)’s use of
“employee” has a “plain meaning” that “alone is
sufficient to end the inquiry.” Vander Boegh v.
EnergySolutions, Inc., 772 F.3d 1056, 1063, 1060 (6th
Cir. 2014). The Sixth Circuit “look[s] for
Congressional intent in [a statute’s] clear language”
when Congress speaks plainly in the statute. Minn.
Min. & Mfg. Co. v. Norton Co., 366 F.2d 238, 242 (6th
Cir. 1966) (collecting cases). And, unlike in Vander
Boegh, the question here is not who can bring an
action under § 3730(h), but rather what type of
retaliatory conduct is covered by § 3730(h).
The statute is clear that it provides relief only for
certain actions taken “in the terms and conditions of
employment.” 31 U.S.C. § 3730(h)(1). “The plain
language of this phrase clearly establishes that
Section 3730(h) applies only to the employment

37a
context and, therefore, cannot extend to claims for
retaliatory action occurring solely after a plaintiff has
been terminated from his job.” United States ex rel.
Head v. Kane Co., 798 F. Supp. 2d 186, 208 (D.D.C.
2011). Because the statutory language is plain, the
Court need not look beyond it. Section 3730(h) does
not cover Felten’s retaliation claims based on conduct
occurring after Beaumont terminated him. And the
MMFCA’s retaliation provision is also limited to
actions taken “in the terms and conditions of
employment.” Mich. Comp. Laws § 400.610c. Neither
party cites to any Michigan cases interpreting the
provision, and the Court is unaware of any. There is
no reason to interpret an identical phrase in the two
statutes differently, especially because its meaning is
plain. The MMFCA’s retaliation provision therefore
does not cover Felten’s retaliation claims based on
conduct occurring after he was terminated.
Because neither the FCA nor the MMFCA’s
retaliation provisions cover conduct occurring after an
employment relationship is terminated, the Court will
grant Beaumont’s motion. Felten may proceed on FCA
and MMFCA retaliation claims based on the one
unchallenged allegation that, prior to Felten filing his
original complaint in 2010, Beaumont cut the
Research Institute’s budget in half while still
expecting Felten to accomplish the same goals.
ORDER
WHEREFORE, it is hereby ORDERED that
Beaumont’s motion to partially dismiss Felten’s first
amendment to complaint [114] is GRANTED.
SO ORDERED.

38a
APPENDIX C
_________
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
_______
No. 19-0110
_______
In re: DAVID L. FELTEN, M.D., Ph.D.,
Petitioner.
_______
Filed: January 2, 2020
_______
ORDER
_______
Before: SILER, ROGERS, and LARSEN, Circuit
Judges.
_______
David L. Felten petitions for permission to appeal an
interlocutory order of the district court dismissing in
part his action for failure to state a claim under 31
U.S.C. § 3730(h) because that statute, by its plain
terms, does not protect an employee from retaliation
following termination. Defendant William Beaumont
Hospital opposes the petition.
We may, in our discretion, permit an appeal to be
taken from an order certified for interlocutory appeal
by the district court if: (1) the order involves a
controlling question of law; (2) a substantial difference
of opinion exists regarding the correctness of the
decision; and (3) an immediate appeal may materially

39a
advance the ultimate conclusion of the litigation. 28
U.S.C. § 1292(b). “These criteria, along with other
prudential factors, guide our discretion to permit an
appeal of the district court’s order.” In re Trump, 874
F.3d 948, 951 (6th Cir. 2017). We grant review under
§ 1292(b) sparingly and only in exceptional cases.
Cardwell v. Chesapeake & Ohio Ry. Co., 504 F.2d 444,
446 (6th Cir. 1974).
The petition raises a controlling question of law for
which there is a substantial difference of opinion
regarding the correctness of the decision. The petition
meets the remaining requirements for certification for
the reasons given by the district court. In particular,
the district court reasoned that the immediate appeal
would materially advance the ultimate termination of
the litigation because:
. . . . Here, if the parties litigated Felten’s one
remaining retaliation claim through to its
conclusion and then Felten appealed and
succeeded based on his post-employment
retaliation argument, the Court would have to
re-litigate the entire retaliation dispute
between Felten and Beaumont. It would save
significant judicial resources and litigant
expenses to resolve the question at this stage,
before proceeding with Felten’s remaining
retaliation claim.
The petition for permission to appeal is GRANTED.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

40a
APPENDIX D
_________
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
_______
UNITED STATES OF AMERICA
and STATE OF MICHIGAN,
Plaintiffs,
ex rel. DAVID FELTEN, M.D., Ph.D., et al.,
Plaintiffs/Relators
v.
WILLIAM BEAUMONT HOSPITALS, et al.,
Defendants.
_______
Case Nos. 2:10-cv-13440
2:11-cv-12117
2:11-cv-12515
2:11-cv-14312
_______
Dated: August 6, 2019
_______
HONORABLE STEPHEN J. MURPHY, III
_______

41a
OPINION AND ORDER GRANTING IN PART
AND DENYING IN PART RELATOR FELTEN’S
MOTION TO AMEND THE COURT’S JULY 1,
2019 ORDER AND TO CERTIFY THE ORDER
FOR INTERLOCUTORY APPEAL [162]
_______
STEPHEN J. MURPHY, III, United States District
Judge
On July 1, 2019, the Court issued an order granting
Defendant
William
Beaumont
Hospitals’
(“Beaumont”) motion to partially dismiss Relator
David Felten, M.D., Ph.D.’s (“Felten”) first amended
complaint (“Order”). ECF 159. On July 17, 2019,
Relator Felten filed a motion to amend the Order and
to certify it for interlocutory appeal. ECF 162. The
Court reviewed the motion and, for the reasons below,
will grant in part and deny in part the motion.
BACKGROUND
The Court detailed the relevant background in the
Order. See ECF 159, PgID 3039–40. The Court adopts
that history here.
STANDARD OF REVIEW
When a federal district court determines that an
order that is not otherwise appealable “involves a
controlling question of law as to which there is
substantial ground for difference of opinion and that
an immediate appeal from the order may materially
advance the ultimate termination of the litigation, he
shall so state in writing such order.” 28 U.S.C.
§ 1292(b). When a party seeks to file an interlocutory
appeal of a nonfinal order in which the Court did not
include the above language, the request “takes the
form of a Motion to Certify an Order for Interlocutory

42a
Appeal.” Newsome v. Young Supply Co., 873 F. Supp.
2d 872, 875 (E.D. Mich. 2012) (citations omitted). The
Court applies 28 U.S.C. § 1292(b) to a motion to certify
an order for interlocutory appeal and may grant the
motion only if: (1) the order ruled on a question of law,
(2) the question of law is “controlling,” (3) there is
“substantial ground for ‘difference of opinion’ about”
the legal question at issue, and (4) “an immediate
appeal [would] ‘materially advance the ultimate
termination of the litigation.’ ” Cardwell v.
Chesapeake & Ohio Ry. Co., 504 F.2d 444, 446 (6th
Cir. 1974); see also Newsome, 873 F. Supp. 2d at 875
(condensing the first and second factors into one).
DISCUSSION
Felten identified two questions addressed by the
Order that he seeks to appeal. See ECF 162, PgID
3083. Felten frames the first question as “[w]hether a
Relator who has pled a count of retaliation under 31
U.S.C. § 3730(h) is required, during the seal period, to
amend his complaint to add additional acts of
retaliation?” Id. (emphasis in original). Felten frames
the second question as: “[w]hether 31 U.S.C. § 3730(h)
protects a relator from defendant’s retaliation after
the defendant has terminated his employment?” The
Court will address each question in turn.
I. Relation Back
Regarding Relator’s first question, the Court will not
reach the other elements of § 1292(b) because it finds
that no substantial ground exists for difference of
opinion. The Sixth Circuit applies the Rule 15(c)(2)
standard to “new allegations in a complaint” even if
they are not new claims. See United States ex rel.
Bledsoe v. Cmty. Health Sys., Inc., 501 F.3d 493, 516–
19 (6th Cir. 2007). In Bledsoe, the Sixth Circuit

43a
permitted relation back only for factual allegations
that arose “out of the same conduct, transaction, or
occurrence attempted to be set forth in [the relator’s]
prior pleadings.” Id. at 518. The Court did not permit
relation back for new allegations that merely alleged
additional conduct that went to the same “cause of
action” that the relator had previously alleged—
namely, the relator’s claim that the defendants
knowingly presented or caused to be presented a false
or fraudulent claim for payment or approval, in
violation of 31 U.S.C. § 3729(a)(1) and (b). Id. at 502–
03.
Relator attempts to frame the issue more narrowly
by arguing that he “is aware of no case that has held
that additional instances of retaliation must be added
to a sealed complaint or be forfeited.” ECF 162, PgID
3091 (emphasis omitted). The argument is unavailing.
Relator did not explain why the sealed nature of his
complaint affects the legal standard for the question
he originally proposes to appeal—namely, whether
specific allegations must satisfy the Rule 15(c)(2)
standard or whether Rule 15(c)(2) applies only to new,
separate claims. And, indeed, Bledsoe was a qui tam
action in which the original complaint was sealed. See
Bledsoe, 501 F.3d at 498 (“Relator filed his complaint
under seal[.]”). Because the Court is bound by Sixth
Circuit precedent, and the Sixth Circuit does not
distinguish between new allegations and new claims
for purposes of the relation-back analysis under Rule
15(c)(2), there are no substantial grounds for a
difference of opinion about the Court’s decision
regarding relation back.

44a
II. Post-Employment Retaliation
Relator’s second question, however, merits
certification for interlocutory appeal. First, whether
31 U.S.C. § 3730(h) applies to allegations of postemployment retaliatory conduct is a question of law.
Second, it is a controlling question of law. “All that
must be shown in order for a question to be
‘controlling’ is that resolution of the issue on appeal
could materially affect the outcome of the litigation in
the district court.” Newsome, 873 F. Supp. 2d at 876
(quoting Eagan v. CSX Transp., Inc., 294 F. Supp. 2d
911, 915 (E.D. Mich. 2003)). Here, if the Sixth Circuit
holds that 31 U.S.C. § 3730(h) applies to allegations of
post-employment retaliatory conduct, Felten could
proceed on a set of retaliation allegations that the
Court
dismissed.
Felten’s
post-employment
retaliation question is therefore a controlling question
of law.
Third, unlike Felten’s relation-back question, his
post-employment retaliation question presents
substantial grounds for difference of opinion.
“Substantial ground for a difference of opinion …
exists ‘when … the question is difficult and of first
impression.’ ” Id. Although the Court held that the
language of 31 U.S.C. § 3730(h) is plain, it also
acknowledged that the Sixth Circuit had suggested a
contrary understanding of the statute in dicta. See
ECF 159, PgID 3045–46. Because it is a question of
first impression in the Sixth Circuit and because the
Sixth Circuit suggested a contrary reading to the one
the Court adopted here, the Court finds that
substantial grounds exist for difference of opinion.
Finally, an immediate appeal would materially
advance the ultimate termination of the litigation.

45a
“An interlocutory appeal materially advances the
litigation when it save[s] judicial resources and
litigant expense.” Newsome, 873 F. Supp. 2d at 878
(internal quotations and citation omitted) (alteration
in original). Here, if the parties litigated Felten’s one
remaining retaliation claim through to its conclusion
and then Felten appealed and succeeded based on his
post-employment retaliation argument, the Court
would have to re-litigate the entire retaliation dispute
between Felten and Beaumont. It would save
significant judicial resources and litigant expenses to
resolve the question at this stage, before proceeding
with Felten’s remaining retaliation claim. And the
case as a whole is in an advanced stage of litigation,
even though the parties have only recently begun
litigating Felten’s amended complaint. Shortly after
the Court resolved a partial motion to dismiss in favor
of Beaumont, Felten filed the motion to certify for
interlocutory appeal. The Court has not held a
scheduling conference for Felten’s amended complaint
and no discovery has occurred.
The Court therefore finds that Felten has met the
criteria for certification of interlocutory appeal on the
question of whether 31 U.S.C. § 3730(h) applies to
allegations of post-employment retaliatory conduct.
As discussed above, however, he has not
demonstrated substantial grounds for disagreement
over whether the Court can dismiss untimely
allegations that do not relate back to the original
complaint. The Court will therefore certify the Order
for interlocutory appeal only as to Felten’s postemployment retaliatory conduct argument.

46a
ORDER
WHEREFORE, it is hereby ORDERED that
Relator David Felten, M.D., Ph.D.’s motion to amend
the Court’s July 1, 2019 order and to certify the order
for interlocutory appeal [162] is GRANTED IN
PART and DENIED IN PART.
IT IS FURTHER ORDERED that the Court’s July
1, 2019 opinion and order granting Defendant William
Beaumont Hospitals’ motion to partially dismiss
Relator Felton’s first amendment to complaint [159] is
CERTIFIED for interlocutory appeal only on the
question of whether 31 U.S.C. § 3730(h) applies to
allegations of post-employment retaliation, and the
Order is AMENDED accordingly.
IT IS FURTHER ORDERED that the case is
STAYED and ADMINISTRATIVELY CLOSED
pending an appeal of the Order, and the resolution
thereof.
SO ORDERED.

47a
APPENDIX E
_________
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
_________
UNITED STATES ex rel. DAVID FELTEN, M.D., Ph.D,
Plaintiff-Appellant,
v.
WILLIAM BEAUMONT HOSPITAL,
Defendant-Appellee.
_______
No. 20-1002
_______
Filed: June 2, 2021
_______
BEFORE: McKEAGUE, GRIFFIN, and BUSH,
Circuit Judges.
_______
ORDER
_______
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court. No judge has

48a
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied. Judge Griffin
would grant rehearing for the reasons stated in his
dissent.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

